                                                                 Issue Date
                                                                       November 7, 2007
                                                                 Audit Report Number
                                                                       2008-BO-1001




TO:         Robert Paquin, Director, Office of Community Planning and Development,
              Boston Regional Office, 1AD
            Henry S. Czauski, Deputy Director, Departmental Enforcement Center, CV



FROM:       John A. Dvorak, Regional Inspector General for Audit, 1AGA

SUBJECT: The City of Chicopee, Massachusetts, Did Not Properly Administer More Than
           $4.3 Million in Community Development Block Grant Funds


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the City of Chicopee, Massachusetts (City), Office of Community
             Development’s administration of its Community Development Block Grant
             (CDBG) program as part of our fiscal year 2007 annual audit plan. The
             objectives of the audit were to evaluate the City’s administration of its public
             facilities and improvement activities funded through the CDBG program and its
             oversight and monitoring of CDBG funds it provided to the City’s Parks and
             Recreation Department and Department of Public Works for various public
             facilities and improvement activities.


 What We Found


             The City’s Office of Community Development did not properly administer more
             than $4.3 million in public facilities and improvement activities funded through
             its CDBG program. Specifically, conflict-of-interest regulations were violated,
                   which resulted in ineligible projects being funded and the improper use of more
                   than $1.1 million in CDBG funds. The Office of Community Development also
                   did not properly support that more than $4.3 million 1 in CDBG-funded public
                   facilities and improvement activities met the low-to-moderate-income benefit
                   requirements. Further, it did not adequately monitor or provide oversight of
                   CDBG funds provided to the City’s Parks and Recreation Department and
                   Department of Public Works for public works and facilities activities. As a result,

                        •   Contracts funded with CDBG funds included more than $628,000 in
                            prohibited or unsupported maintenance and repair activities,
                        •   Federal requirements for procurement and contracting were not always
                            followed,
                        •   Federal provisions for financial management were not always followed,
                            and
                        •   Davis-Bacon requirements for labor compliance were not always met.


    What We Recommend


                   We recommend that the Director of the U.S. Department of Housing and Urban
                   Development’s (HUD) Boston Office of Community Planning and Development
                   require the City to repay the $1.1 million in ineligible costs from nonfederal
                   sources. We recommend that the Deputy Director of the Departmental
                   Enforcement Center pursue all applicable administrative sanctions against the
                   City, including debarring individuals involved in the decision to expend these
                   funds. We also recommend that the Director of HUD Boston Office of
                   Community Planning and Development (1) ensure that the City provides
                   supporting documentation for the unsupported costs, including adequately
                   documenting the service area, or take administrative action requiring repayment of
                   amounts not adequately supported or determined to be ineligible; (2) require the
                   Office of Community Development to establish written oversight policies and
                   procedures that meet HUD requirements for awarding, administering, and
                   monitoring CDBG program funds; and (3) require the City to repay from
                   nonfederal funds CDBG program funds spent on prohibited or unsupported
                   maintenance and repair activities.

                   For each recommendation in the body of the report without a management
                   decision, please respond and provide status reports in accordance with HUD
                   Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
                   or directives issued because of the audit.




1
    This amount includes the improper use of the $1.1 million for neighborhood improvements.


                                                         2
Auditee’s Response


           We provided City officials with a draft audit report on September 17, 2007, and
           requested a response by September 28, 2007. We held an exit conference with
           City officials on September 24, 2007, to discuss the draft report, and we received
           their written comments on October 9, 2007. The City generally disagreed with
           Finding 1 and 2 and generally agreed with Finding 3, with the exception of repairs
           and maintenance items.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report. We did not include all
           attachments to the auditee’s response due to the voluminous nature of the
           attachments but the attachments are available upon request.




                                            3
                            TABLE OF CONTENTS

Background and Objectives                                                          5

Results of Audit
      Finding 1: Conflict-of-Interest Regulations Were Violated Resulting in the   7
      Improper Use of More Than $1.1 Million for Ineligible projects
      Finding 2: The City Did Not Accurately Determine the Actual Service Areas    16
      Related to Its Various Public Improvement Projects
      Finding 3: The City’s Office of Community Development Did Not Fulfill Its    20
      Oversight and Monitoring Responsibilities


Scope and Methodology                                                              27

Internal Controls                                                                  28

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               29
   B. Auditee Comments and OIG’s Evaluation                                        30
   C Applicable Criteria and Violations                                            63




                                             4
                         BACKGROUND AND OBJECTIVES


The City of Chicopee, Massachusetts (City), receives annual Community Development Block
Grant (CDBG) program funds on a formula basis from the U.S. Department of Housing and
Urban Development’s (HUD) Office of Community Planning and Development. The CDBG
program is a flexible program that provides communities with resources to address a wide range
of unique community development needs.

The City’s Office of Community Development administered the CDBG program. During our
audit period from July 1, 2002, through December 31, 2006, it was responsible for administering
25 public facilities and improvement activities or projects funded with more than $5.8 million in
CDBG funds. Our audit looked at four park-related activities and eight street and sidewalk
activities totaling more than $4.32 million 2 during the audit period. Additionally, we looked at
plans to fund $62,975 for a gazebo project. 3

The Office of Community Development awarded CDBG funds through a request for proposal
process to the City’s Parks and Recreation Department (Parks and Recreation) and the
Department of Public Works (Public Works) for various public facilities and improvement
projects that were generally located in “target areas.” 4 The Office of Community Development
based the eligibility of these activities, in part, on whether the activities were located in these
target areas. Parks and Recreation and Public Works entered into interdepartmental agreements
with the Office of Community Development to obtain CDBG funds for various public facilities
and improvement projects. The scope of work in the agreements only gave a general description
of the work to be completed. The Office of Community Development required these
departments to submit payment requests to it to receive the CDBG funds. Once these
departments received payment from the Office of Community Development, they paid the
contractors and/or vendors for services rendered. Based on the interdepartmental agreements,
the Office of Community Development was responsible for monitoring and overseeing these two
departments to ensure that federal requirements were met.

On November 1, 2005, former Mayor Richard Goyette, formerly of 51 Providence Street,
Chicopee, Massachusetts, was arrested on extortion charges related to accepting illegal cash
campaign contributions. In return for the money (illegal campaign contributions), he promised a
developer he would intercede on his behalf with the Office of Community Development on a
project. He pled guilty to a two-count indictment charging him with use of his position under
color of official right to extort two illegal campaign contributions, each in the amount of $5,000.

2
  The review of awards and disbursements for the street and sidewalk improvements included contracts that were
funded in whole or in part with CDBG funds. Of the more than $3.5 million in CDBG activities reviewed, more
than $6.5 million was paid on these contracts, but the expenses for CDBG and non-CDBG funds were not always
recorded separately.
3
  We reviewed this additional project separately because the gazebo was part of an activity that we selected for
review and was later removed and rebid by the City as a separate project.
4
  Target areas are areas designated by the City’s Office of Community Development as low-to-moderate-income
areas of the city, based on census tract data provided by HUD.


                                                         5
We audited the City’s Office of Community Development’s administration of the CDBG
program, specifically to evaluate whether

   1. Public facilities and improvement activities funded with CDBG funds were eligible
   activities of the CDBG program,
   2. CDBG funds were properly awarded and disbursed, and
   3. The City’s Office of Community Development provided adequate oversight and
   monitoring of CDBG funds it provided to Public Works and Parks and Recreation for public
   facilities and improvement activities.

The issues identified in our report deal with administrative and internal control activities that we
believe must be brought to the attention of City officials. Other matters regarding the City’s
management may remain of interest to our office as well as other federal agencies. Release of
this report does not immunize any individual or entity from future civil, criminal, or
administrative liability or claim resulting from future action by the HUD and/or other federal
agencies.




                                                 6
                                      RESULTS OF AUDIT

Finding 1: Conflict-of-Interest Regulations Were Violated Resulting in
the Improper Use of More Than $1.1 Million for Ineligible Projects
The City’s Office of Community Development improperly used more than $1.1 million in
CDBG funds for four ineligible projects in the City’s more affluent5 Aldenville neighborhood
where the then former mayor’s family resided. This violation occurred because the former
mayor intervened in the City’s normal decision-making process to have these projects included
on the City’s fiscal year 2005 annual action plan.6 Despite the presence of an apparent conflict
of interest, the City also permitted the former mayor to influence decisions to accomplish these
projects. However, the decision to use CDBG funds can not be supported. The projects are
ineligible because the neighborhood was inappropriately classified as a CDBG “target area,” and
its inclusion in the annual action plan was based on inaccurate information. Also, the public
process for citizen participation was not followed, and significant deficiencies were found in
procurement actions related to one project. As a result, the City breached its fiduciary
responsibilities and incurred more than $1.1 million in ineligible CDBG costs.7 Also, these
funds were not available to address neighborhoods with much greater needs8 that the program
was meant to serve.
     ______________________________________________________

    CDBG-Funded Projects
    Influenced by Former Mayor

        The former mayor took an active role in influencing changes to Public Works and Parks
        and Recreation fiscal year 2005 CDBG funding proposals. There were four projects in
        the Aldenville neighborhood where the former mayor resided that received more than
        $1.1 million in CDBG funding. They included Aldenville Common, Aldenville streets,
        Aldenville sidewalks, and tree planting projects. These projects were not proposed by
        Parks and Recreation and Public Works during the City’s fiscal year 2005 annual CDBG
        planning process. These projects were proposed by the former Mayor; however, the
        Mayor did not submit a written proposal. According to the Office of Community
        Development, it is not uncommon for mayors to submit proposals, although no mayor has
        ever submitted a written proposal.



5
  Based on the 2000 census data, the Aldenville neighborhood had the second highest median income in the City.
6
  This plan identified the use of CDBG funding for the period July 1, 2004 to June 30, 2005.
7
  According to CDBG program regulations, determination of eligibility includes 5 provisions including that costs
incurred must conform to OBM Circular A-87, “Costs Principles for State, Local and Indian Tribal Governments.”
The City can not document that all costs were necessary and reasonable.
8
  According to the December 3, 2003 minutes of the Community Development Citizen Advisory Committee, the
Office of Community Development advised the public and committee that “the City continues to focus its funding
assistance on where the needs are greatest.”


                                                        7
        During the annual CDBG planning process, Parks and Recreation and Public Works
        submitted internal proposals for CDBG-funded improvement activities. Parks and
        Recreation’s proposal included improvements to Sarah Jane Sherman Park and Nash
        Park. As a result of the former mayor’s intervention, the Parks and Recreation’s proposal
        was rejected and instead the Aldenville Common, an area located at the end of the former
        mayor’s street, was funded. Also, the Public Works’ proposal included the statement, “as
        many projects as possible in the CDBG target areas,” but it did not include the project
        work funded in the fiscal year 2005 annual action plan for the Aldenville neighborhood.
        The Public Works’ proposal was also rejected and instead projects for the former mayor’s
        street and the adjacent streets were funded. According to Public Works staff, they did not
        select the Aldenville streets for the CDBG-funded improvements. Public Works stated
        that the former mayor and the director of the Office of Community Development asked
        for additional road and sidewalk estimates for a more expansive Aldenville neighborhood
        project. The revised CDBG project was documented in a February 17, 2004, fax from
        Public Works to the former mayor and copied to the Office of Community Development.
        This revised CDBG project included full-depth road reconstruction and new concrete
        sidewalks for six streets in the Aldenville neighborhood, including the former mayor’s
        street and the adjacent streets.

        The necessity or reasonableness of approving the Aldenville Common project, which
        was estimated to cost more than $450,000 9 and was only 7,600-square-feet in size is
        questionable (see pictures below). According to a January 14, 2004, park maintenance
        memorandum, Parks and Recreation’s primary objective for Aldenville Common was to
        install a new park sign and replace the outdated flagpole.




                   Previous Aldenville Common pavilion, walkways, and benches in 2004




9
 For the project, $363,261 was spent without the gazebo being completed. The gazebo will potentially add another
$62,975 to the project costs, and landscape plantings that are on hold are estimated to cost more than $35,000.


                                                       8
                                  View of Aldenville Common as of July 2007
          In addition, the necessity of the street maintenance work and tree planting totaling
          $799,240 is questionable since Public Works was unable to provide documentation
          showing a need for the work or the necessity of the reconstruction work on the streets in
          the Aldenville neighborhood. Public Works also did not have any documentation
          showing the basis for selecting the specific Aldenville area streets,10 including the former
          mayor’s street, or documentation showing that a full-depth reconstruction of all the
          streets and total replacement of sidewalks was warranted. Further, a preconstruction
          video did not show the necessity of sidewalk work on the former mayor’s street.



     Aldenville Neighborhood
     Projects Were Not Eligible and
     Inappropriately Classified

          The Aldenville neighborhood projects were ineligible because the neighborhood was
          inappropriately classified as a CDBG “target area,” and did not qualify under the criteria
          for national objectives as a CDBG assisted activity. Also, inclusion in the fiscal year
          2005 annual action plan included inaccurate statements concerning this area. A housing
          study used by the Office of Community Development (issued in September 2003 and
          again in April 2004) included an analysis that showed the Aldenville neighborhood
          typically ranked high and outperformed the city benchmark in various socioeconomic and
          housing indicators such as income, owner-occupied housing, and median home values.
          The study stated that the City was comprised of 12 census tracts, which formed the basis
          for six neighborhoods. Aldenville was identified in the study as Neighborhood C and
          was made up of census tracts 8110 and 8112. The study presented a statistical and
          comparative overview of each neighborhood relative to the city as follows:




10
 With the exception of Mary Street and Olea Street, which were included in the Public Works’ proposal and for
which required work was documented.


                                                       9
           Excerpt taken from the April 2004 RKG Housing Market Study for Chicopee, Massachusetts

        Since this study was completed during the fiscal year 2005 annual action plan planning
        process and within months of the July 1, 2004, annual action plan submission, the Office
        of Community Development should have taken the study analysis and recommendations
        into account when deciding how to best allocate its fiscal year 2005 (July 1, 2004) CDBG
        funds. Instead, the Office of Community Development targeted the CDBG funds to the
        Aldenville neighborhood.

        Although census data showed an overall 42 percent low-to-moderate-income population
        in the Aldenville neighborhood, the City stated in its fiscal year 2005 annual action plan
        that “most activities will take place in Census Tracts 8107, 8108, 8109.01, 8109.02, 8110,
        and 8112.” 11 It went on to explain that “The rationale for allocating funds to these areas
        is that these are older, poorer areas of the City where the infusion of federal funds can
        make the most impact.” The City contends that the Aldenville neighborhood was
        showing signs of decline and that they wanted to take a proactive approach. However,
        the City could not show that the area was showing signs of decline.

        Most activities (57 percent 12 ) in the fiscal year 2005 action plan took place in the
        Aldenville neighborhood. However, based on the statistical data provided in the
        September 2003 and April 2004 housing studies, the Aldenville neighborhood was not a
        poorer area of the city. Also, according to the study, the Aldenville neighborhood had
        one of the City’s “more modern housing supply.” Further, the Aldenville neighborhood
        had the second highest median income of the six neighborhoods in the city.




11
  The Aldenville neighborhood’s two tracts are identified as 8110 and 8112.
12
  Excluding amounts allocated to planning, administration, and contingency, the percentage allocated to Aldenville
increases to 78 percent.


                                                        10
Public Process Not Followed



     During the audit, the City was unable to produce records to show that the public process
     in place was in fact followed prior to selection of the Aldenville neighborhood projects.
     The City could not show that it permitted public examination and appraisal of the
     Aldenville projects. According to the City's Citizen Participation Plan as provided in the
     annual action plan submitted to HUD, the Community Development Advisory
     Committee (CDAC) is the primary vehicle for citizen participation in Chicopee. The
     CDAC members are appointed by the mayor and their duties include reviewing CDBG
     program proposals and recommending to the Mayor those which meet funding objectives.
     In addition, public meetings are held to go over the various proposals and minutes are
     recorded of these meetings.

     Although requested several times, the Office of Community Development could not
     provide CDAC minutes for the period prior to selection of the Aldenville neighborhood
     projects or when the Aldenville projects were awarded. Further, the City Clerk’s office
     advised us that they did not have a record of the CDAC minutes for this time period.
     Without these official records, the City cannot show that the public process in place was
     followed.

     Other records included in the Office of Community Development’s files included notes
     from meetings of the CDAC through March 16, 2004. These meeting notes show that on
     February 18, 2004, Public Works and Parks and Recreation presented their original
     proposals, and not the Aldenville projects, to the CDAC. The CDAC meeting notes
     included in the Office of Community Development files did not show Parks and
     Recreation or Public Works presenting the Aldenville projects. However, the Aldenville
     projects' award letters, dated April 7, 2007, indicate that the Mayor and the CDAC had
     made their final decisions for funding and selected projects in the Aldenville target area.

     Further, the neighborhood hearings (June 2004 and September 2004) were held after the
     decision was made and the inclusion of the project in the annual action plan was
     submitted to HUD (May 2004) for the improvements to Aldenville Commons.



Apparent Conflict of Interest


     In addition to proposing the Aldenville projects, the former mayor had hands-on
     involvement in planning the details of the Aldenville neighborhood projects. The former
     mayor approved and signed the related annual action plans and had a hands-on role in the
     design of the Aldenville Common project and the selection of various amenities. Also,
     the former Mayor approved and signed construction and architect contracts and change



                                             11
          orders related to the Aldenville Common project and Aldenville road and sidewalk
          improvement projects. The former mayor selected which streets would be included in the
          projects, and he was involved in the decision to rebid the Aldenville Common project and
          revise the project’s plans and specifications. In addition, the former mayor’s wife
          became a Park and Recreation Commission board member 13 just before June 2005 when
          the Aldenville Common project was initially advertised.

          The former mayor’s involvement in the details of the Aldenville Common project
          included selection of the gazebo, the curved benches on the first bid, and various other
          proprietary items that were included in the bid specifications. According to Parks and
          Recreation officials and the architect, the former mayor was personally involved with this
          project, to include selecting the specific amenities such as lights, benches, and trash
          receptacles.

          Since the former mayor and his wife resided in a home they owned in the area targeted
          and would have benefited from the CDBG improvement activities, the City was required
          to request a conflict-of-interest exception from HUD. In requesting this exception, the
          City would have been required to provide HUD with the following:

             •   A disclosure of the nature of the conflict, accompanied by an assurance that there
                 had been public disclosure of the conflict and a description of how the public
                 disclosure was made and

             •   An opinion from the City’s attorney that the interest for which the exception was
                 sought would not violate state or local law requirements.

          HUD regulations do not provide anyone or any entity with a right to an exception, but
          HUD may grant exceptions in conflict-of-interest situations on a case-by-case basis.
          However, HUD regulations provide that an exception should not be granted if the person
          did not remove himself/herself from all deliberations surrounding the decision which
          resulted in personal gain. We found no evidence that the City either requested this
          exception or provided public disclosure of the conflict of interest involved in this
          situation.


     Procurement Actions for
     Aldenville Common Activities
     Deficient

          In addition to the conflict-of-interest violation, public participation process not being
          followed, and the inappropriate decision to target funds for the Aldenville area, the
          Aldenville Common procurement history was not adequately documented. Also, there


13
  The mayor’s wife became a member of the Park Commission, which is a policy-making board that reviews and
approves projects and payments and has hiring and firing authority for Parks and Recreation.


                                                     12
        were substantial and significant deficiencies in the award and procurement actions for the
        project. The procurement actions for the Aldenville Common activity did not include
        adequate documentation to demonstrate the necessity and reason for rejecting bids.
        Additionally, the procurement actions did not promote fair and open competition to the
        maximum extent possible.

        The necessity of the work at Aldenville Common was not adequately documented or
        justified in the City’s procurement records. Although pictures of the park show that the
        park needed some minor maintenance and landscape repair work and some amenities 14 in
        the park could be replaced or upgraded to be more appealing, the pictures (see page 8) do
        not show that a 7,600-square-foot common needed comprehensive renovation of more
        than $450,000. 15 From the pictures, we question the necessity of replacing the concrete
        walkways already in place and the pavilion that had been erected by students from a
        Chicopee school 13 years earlier. We also question the necessity for the amount of
        landscape work that was performed and consider the nature of much of the work to be
        maintenance and repair work.

        According to City officials, the bids came in too high for the initial invitation for bid that
        was advertised in June 2005 for the Aldenville Common project, but the City did not
        document the reason for rejecting the initial bids that came in July 2005. However, we
        noted that the independent cost estimate completed by the architect before the invitation
        for bids was advertised showed a cost of approximately $447,000. The low bidder
        submitted a bid for $483,000, which is not significantly more than the cost estimate. At
        the time the City advertised the invitation for bid, the Office of Community Development
        had committed to Parks and Recreation approximately $175,000 for the actual
        construction work for this project. The invitation for bid should not have gone out at that
        time with the lack of funding available to do the project and when the City already knew
        this project would cost almost $447,000.

        The procurement actions taken by the City for the Aldenville Common project did not
        promote fair and open competition to the maximum extent possible. For instance,

             •   The written specifications for both the initial invitation for bid and the rebid of the
                 project included work previously performed by Public Works, specifically,
                 demolition work including removal of the pavilion, benches, trees, fountains, and
                 concrete. One bidder for the initial invitation for bid indicated that its bid was
                 based on the written specifications and drawings and it had not performed an on-
                 site visit before submitting a bid. In this case, the bid unnecessarily included
                 demolition costs.

             •   City officials advised that the project was rebid with the gazebo taken out, but it is
                 unclear from the written specifications that this work was removed. There were

14
  Benches, lights, trash receptacles, and drinking fountains.
15
  A total of $363,261 has been paid on this project, and another $62,975 in CDBG funds has been committed for the
gazebo. Landscape plantings are estimated to cost another $35,000. This work has not yet been planned and/or
approved.


                                                       13
                      only two bidders that bid on the rebid of the project; however, the higher bidder
                      could not recall whether his bid included the gazebo. He stated that based on the
                      specifications that we showed him for the rebid, he would think that the gazebo
                      was part of the invitation for bid. City officials, contractors, and the winning
                      bidder also agreed that written specifications appeared to include the gazebo as
                      part of the rebid. Discussions with City staff and the architect disclosed that the
                      City planned to do a change order for the gazebo but later learned that it could not
                      do so based on state procurement regulations. In addition, when we asked the
                      winning bidder how he learned that the gazebo was not part of the rebid, he stated
                      that the information was provided at a prebid meeting. However, the written
                      specifications do not indicate a prebid meeting date and time, and City records
                      and the architect’s records do not document notification of this prebid meeting
                      with contractors that altered the written specifications. Therefore, the winning
                      contractor had an unfair advantage.

                •     The City issued an addendum requiring Division of Capital Asset Management
                      (DCAM) certification for the installation of the gazebo for the first invitation for
                      bid on the project. DCAM certification is required for public works projects over
                      $100,000 that include renovation of a building or erecting a building. Discussions
                      with the Massachusetts Attorney General’s Office indicated that a gazebo would
                      not be considered a building unless it was extravagant. 16 The office also advised
                      us that the City’s chief procurement officer would be responsible for making the
                      DCAM certification determination based on the project’s scope of work.

                •     The City added $81,175 in additional construction work without going out to bid.
                      Instead, it added this work as a change order. The City initially included these
                      two items as alternates 1 and 2 in the rebid, but instead of accepting them with the
                      base bid, it improperly added the work two months after the initial contract was
                      executed. Further, the winning bidder’s price was significantly higher than the
                      independent cost estimates for the work added. For example, the architect
                      estimated concrete paving to cost $25,110, but the contractor gave a price of
                      $56,875 for this item. The irrigation system was estimated as $18,000, but the
                      contractor gave a price of $24,300.

                •     The City included proprietary specifications for a significant amount of amenities
                      without documenting or having a justification for doing so. Although the City did
                      include an “or equal” clause in some cases and/or listed two different types, it did
                      not conform to state requirements, which require three items to be listed and
                      documentation justifying the need for proprietary specifications. Parks and
                      Recreation staff indicated that they did not have a justification for the proprietary
                      items and that it was not their decision to include proprietary items.




16
   Examples provided to us were that the gazebo would need to have a significant amount of lighting, plumbing, etc., for DCAM certification to
be required. The gazebo selected for this project was not extravagant and would not meet these criteria.



                                                                      14
     Conclusion:


           The City, through its Office of Community Development, did not act in a prudent manner
           in its decision to award more than $1.1 million in CDBG funds for ineligible projects in
           the former mayor’s neighborhood. Given the circumstances noted in this finding the
           Office of Community Development’s responsibilities to address neighborhoods with the
           greatest need, it breached the City’s fiduciary responsibilities and did not meet the
           reasonableness cost principles criteria 17 for the projects, resulting in the City incurring
           more than $1.1 million in ineligible CDBG costs. Its decision not to follow the public
           process, to invest scarce resources in the former mayor’s neighborhood, which a recent
           housing study showed as ranking higher and outperforming other areas of the city, and to
           allow the mayor to influence this decision was neither prudent nor responsible. Further,
           the Office of Community Development did not meet its responsibilities for the proper
           administration of federal funds. The integrity of the CDBG program is diminished when
           it appears that persons in a position of authority are using the program for personal gain.

           The Office of Community Development committed another $62,975 in CDBG funds in
           May 2007 to finish the Aldenville Common project. The installation of the gazebo was
           underway in September 2007. Given the circumstances surrounding the Aldenville
           Common project, we question the decision to spend another $62,975 on the Aldenville
           Common project using CDBG funds.



     Recommendations

              We recommend that the Director of HUD’s Boston Office of Community Planning and
              Development

                      1A. Require the City to repay the $1,162,501 plus interest from nonfederal
                          funds.
                      1B. Require the City to institute internal controls for real and apparent conflict-
                          of-interest situations involving CDBG funds.
                      1C. Require the City to use non-CDBG funds for the $62,975 planned gazebo
                          project.

              We also recommend the Deputy Director, Departmental Enforcement Center

                      1D. Pursue all applicable administrative sanctions against the City, including but
                          not limited to debarment of individuals who allowed the former mayor to
                          influence these projects when there was a conflict of interest present.

17
   Office of Management and Budget Circular A-87 states that federal cost principles require funds to be spent on cost deemed reasonable, and
provides that in determining reasonableness of a given cost, consideration shall be given to whether the individuals concerned acted with
prudence in the circumstances considering their responsibilities to the governmental unit, its employees, the public, and the federal government.



                                                                       15
                                     RESULTS OF AUDIT

Finding 2: The City Did Not Accurately Determine the Actual Service Areas
Related to Its Various Public Improvement Projects

The City did not accurately determine or document the actual service areas for more than $4.3
million in CDBG-funded public improvement activities. This condition occurred because the
City used census tract/block numbering boundaries data based solely on the location of the
public improvement to support the service area and did not consider all of the users of the
activity as required. The method generally resulted in service areas being either too small or too
large. The City also prematurely purged records that supported the low-to-moderate-income area
national objective for the Sheridan Street Mini Park. It mistakenly believed that enough time had
passed to allow it to purge the Sheridan Street Mini Park records. Without an accurate service
area determination or surveys, HUD has limited assurances that the activities principally
benefited low- and moderate-income residents and that more than $4.3 million in CDBG funds
invested was eligible or that moderate-income households did not benefit to the exclusion of
low-income households.
     ______________________________________________________

Service Areas Identified Based
on Park and Street Location


          The service areas were not properly defined for parks and street improvement activities
          totaling more than $4.3 million and included projects for the (1) Rivers and Sarah Jane
          Sherman Parks and Sheridan Street Mini Park; (2) Aldenville Common; 18 and (3)
          various street improvements throughout the city. Specifically, the City incorrectly used
          the activities’ location alone and not the area served as the basis for supporting the low-
          to-moderate-income area national objective. The location of the activities alone would
          not demonstrate an area benefit. Also, the use of block numbering areas to identify a
          service area can either produce an area too small or too large. For example,

                 •   The City used an entire block numbering area to support the low-to-moderate-
                     income area national objective for side streets improvements. These street
                     improvements on residential streets could reasonably be said to only benefit
                     the residents of the immediately adjacent area, not the entire block numbering
                     area.
                 •   The City used a calculation for the standard service area for a neighborhood
                     park, which is a radius of one-fourth mile distance, to support the low-to-
                     moderate-income area national objective. These parks are large, and their

18
 The service area for Aldenville Common (see finding 1) was not properly defined for the park improvements
made totaling more than $1.1 million.


                                                      16
                     various facilities serve a citywide service area. However, the City had not
                     adequately documented the service area for the CDBG-funded improvements.

           HUD regulations indicate that the location of an activity alone does not demonstrate an
           area benefit. HUD guidance provides that the “mere location of an activity in a low and
           moderate income area, while generally a primary consideration, does not conclusively
           demonstrate that the activity benefits low and moderate income persons.” In addition
           24 CFR [Code of Federal Regulations] 570.208(a) provides that “[The] area need not
           be coterminous with census tracts or other officially recognized boundaries but must be
           the entire area served by the activity.”


     Use of Block Numbering Areas
     Not Accurate



           For side streets improvements, the service area comprised only a small portion of the
           block numbering area. Specifically, street improvements on a side street principally
           benefit those residents who reside on that side street and the immediately adjacent area.
           The City’s use of block numbering area percentages was not accurate since the street
           improvements did not always include all, or even a majority, of the streets within the
           block numbering area. The City only paved certain streets within the block numbering
           areas. Census data for the block groups showed that in some instances, the percentage
           of persons making above $35,000 could be up to 50 percent and the percentage of
           persons making above $50,000 was, in some instances, above 20 percent.

           For the major arterial streets, the service area was more properly defined as citywide if
           not greater. Major arterial streets are presumed to be used principally by citywide
           residents as well as other nonresidents from surrounding communities. Since these
           streets are considered major arterial streets, it may not be practical or even possible to
           determine the correct service area.

           While Rivers Park and Sarah Jane Sherman Park are located in an area considered a
           low-to-moderate-income area, there is evidence that these parks as a whole may not
           “principally benefit” low-to-moderate-income persons. Rivers Park and Sarah Jane
           Sherman Park are both large parks and based on information provided by Parks and
           Recreation, the service area for these parks as a whole is broader than currently defined
           in the projects’ eligibility documentation maintained by the Office of Community
           Development. For example, Rivers Park and Sarah Jane Sherman Park were used on a
           regular basis by the Chicopee Public Schools’ high school (i.e., citywide) athletic
           departments for soccer, football, softball, and baseball team practices and games with
           other cities’ and towns’ various athletic teams. These two parks were also used by
           other local athletic organizations throughout the city and other areas. 19 Parks and

19
  During the audit, we concluded that $36,086 in CDBG funds for the Sarah Jane project served a low-to-moderate
income area and that the activities for Rivers Park served a low-to-moderate income area.


                                                      17
      Recreation staff acknowledged that Rivers Park, Sarah Jane Sherman Park, and the area
      known as Aldenville Common served a citywide area. Aldenville Common was
      primarily used to hold the city’s summer concerts and was also used by teenagers as a
      place to socialize after school.



Records Prematurely Purged
for One Park

      The City did not have support to show that the service areas were properly defined for
      parks improvement activities for the Sheridan Street Mini Park. City officials stated
      that it was the residents of the Sheridan Street Housing Cooperative who requested the
      City to install the Sheridan Street Mini Park. However, since the Sheridan Street Mini
      Park was not located in a low-to-moderate-income area, the City indicated that it used
      surveys of residents from the nearby Sheridan Street Housing Cooperative, as well as a
      nearby side street, to show a low-to-moderate-income service area. Also, these surveys
      were purged less than three years from closeout of the grant and, thus, were unavailable
      for review. In addition, it is not clear how the City justified using the incomes from the
      Sheridan Street Housing Cooperative residents to support the service area of a park
      located outside the housing cooperative and further down the street since the Sheridan
      Street Housing Cooperative already had a park located within the housing cooperative.


Determination of Actual Area
Served by Activities Needed


      The Office of Community Development needs to determine the actual service area for
      its public improvement activities that receive CDBG funding. The determination of the
      area served by an activity is critical to the area benefit subcategory. The inclusion or
      exclusion of a particular portion of a community’s jurisdiction can make the difference
      between whether the percentage of low-to-moderate-income residents in the service
      area is high enough to qualify under the low-to-moderate-income area benefit national
      objective. Without an accurate service area determination for the Rivers and Sarah
      Jane Sherman Parks, Aldenville Common parks, or the surveys for the Sheridan Street
      Mini Park, HUD has limited assurance that the activities principally benefited low- and
      moderate-income households and that more than $4.3 million in CDBG funds invested
      by the City was eligible or that moderate-income households did not benefit to the
      exclusion of low-income households.




                                             18
     Conclusion


          The City’s Office of Community Development did not adequately determine the actual
          service area for its public improvement activities that received CDBG funding. Without
          an accurate service area determination or the surveys, HUD has limited assurances that
          the activities principally benefited low- and moderate-income residents and that more
          than $4.3 million in CDBG funds invested was eligible or that moderate-income
          households did not benefit to the exclusion of low-income households.



     Recommendations



           We recommend that the Director of HUD’s Boston Office of Community Planning and
           Development require the City to

                  2A. Determine the actual service area for $2,787,800 20 in activities and repay
                      any funds spent on activities that do not meet the national objective.

                  2B. Implement policies and procedures to document the basis for the
                      determination of an activity’s actual service area and not rely on the location
                      alone.

                  2C. Maintain records, including supporting documentation, for at least three
                      years from the closeout of the CDBG program grant.

           We recommend that the Director of HUD’s Boston Office of Community Planning and
           Development

                  2D. Evaluate and confirm the actual service area for $104,92720 in activities for
                      which the City provided support to determine whether the activities meet a
                      national objective.




20
  Of the $4,320,387 discussed, the City should support the area served for $2,787,800. This amount excludes
$1,162,501cited in finding 1 as ineligible and $265,159 cited in finding 3 as ineligible or unsupported. This amount
further excludes $104,927 for park activities, the service areas of which, at the time of the audit, were not adequately
documented but after additional information was provided, after the field work to determine whether it served a low-
to-moderate-income area.


                                                          19
                                RESULTS OF AUDIT

Finding 3: The City’s Office of Community Development Did Not
Fulfill Its Oversight and Monitoring Responsibilities
The City’s Office of Community Development did not provide adequate oversight and
monitoring of CDBG funds provided to Public Works and Parks and Recreation to ensure that
funds were used in accordance with CDBG program requirements. Specifically, the Office of
Community Development did not ensure that

   •   Contracts using CDBG funds included only eligible program costs,
   •   Federal procurement and contracting requirements were followed,
   •   Federal financial management provisions were followed, and
   •   Davis-Bacon labor compliance requirements were met.

These deficiencies occurred in part because the Office of Community Development did not have
adequate policies and procedures in place for monitoring and overseeing contracts awarded by
other departments. In addition, for the most part, the City followed state requirements for these
procurements but not federal and CDBG procurement requirements. As a result, the City
incurred more than $628,000 in ineligible or unsupported costs, and HUD has limited assurances
that CDBG funds were properly administered in accordance with federal and CDBG
requirements.
   ______________________________________________________

 Ineligible Costs Included in
 CDBG Contracts


         The Office of Community Development did not ensure that payments to Public Works
         and Parks and Recreation for various street and park improvements included only
         eligible CDBG costs. CDBG regulations provide that costs associated with the
         maintenance and repair of publicly owned streets, parks, playgrounds, and water and
         sewer facilities are not eligible CDBG costs. The general rule is that any expense
         associated with repairing, operating, or maintaining public facilities, improvements, and
         services is ineligible. However, the City paid $628,000 in ineligible or unsupported
         maintenance and repairs of existing public improvements and facilities and for a study
         of the City’s North Industrial Park under the Public Works and Parks and Recreation
         contracts.

         The questioned and ineligible CDBG costs for maintenance and repairs or study
         included the following:



                                               20
         •   The City expended $184,159 in CDBG funds for unsupported maintenance and
             repair improvements at Rivers Park. The $184,159 represents work related to
             the pool rehabilitation involving sandblasting the pool, caulking, concrete
             repair, and repainting the pool. The work also included rehabilitation of the
             pool building including new toilets, wash sinks, grab bars, toilet partitions,
             shower improvements, new windows, doors, and access and egress into the
             building, as well as electrical upgrades and the repainting of the building’s
             interior.

         •   The City expended $51,000 in CDBG funds for ineligible sewer-related
             maintenance and repairs. Specifically, the City paid $25,000 for sewer repairs
             and $26,000 in maintenance costs related to sewer cleaning.

         •   The City expended $363,261 in CDBG funds for improvements at Aldenville
             Common that were partly maintenance in nature and ineligible. These items
             included the washing of the fountain and replacement of various amenities
             including park benches, water fountain, flagpole, and trash receptacles. In
             addition, the City used CDBG funds for landscaping work such as removing
             trees and replacement of trees and mulch, which are generally maintenance in
             nature. This project and its costs are discussed in detail in finding 1.

         •   A public works and facilities contract between the Office of Community
             Development and Public Works included $30,000 to pay a consultant to study
             traffic issues at the City’s North Chicopee Industrial Park. A study is not an
             eligible public facilities and improvement activity. The City agreed to remove
             this expense from the public works and facilities eligibility category and
             reclassify it under planning.


Federal Procurement and
Contracting Requirements Not
Followed

      The City’s Office of Community Development did not ensure that $5 million in
      procurements and contracts awarded by other City departments, in whole or in part
      using CDBG funds, always followed federal procurement and contract procedures as
      required. Specifically, the City

         •   Did not always adequately document the history of procurements paid for with
             CDBG funds. For the Aldenville neighborhood improvements project, the need
             for all of the materials and services included in the $1.1 million award was not
             sufficiently documented. The reason for rejecting the initial bids on the
             Aldenville Common activity was also not documented (see finding 1).




                                           21
•   Did not always prepare independent cost estimates before going out to bid and
    did not always complete cost analyses when necessary. A review of the
    contract records found that independent cost estimates were not always done. In
    one example, the City paid $1.3 million for a street work unit-price contract,
    funded in part with CDBG funds, without conducting the required cost analysis.
    It also approved using a contractor for a new gazebo to finish the Aldenville
    Common project without performing a cost analysis. There was only one bidder
    for each of these procurement actions, and, therefore, a cost analysis was
    required.

•   The procurement records did not support the method of procurement used and
    contract type selected. Specifically, the City used the sealed bids method of
    procurement for its Public Works unit-price contracts. This was not in
    accordance with federal requirements because the City did not have a complete,
    adequate, and realistic specification of the work to be completed as required.
    Since 2004, Public Works has been issuing an invitation for bid for specific
    CDBG public improvement projects in which the streets and sidewalks are
    known and a more realistic estimate can be determined.

•   Did not always ensure that competition was fair and open to the maximum
    extent possible.

       o  For the Aldenville Common project, the City did not have clear project
         specifications; the written specifications included a gazebo that was not
         included in the drawings when the City rebid the project. The City also
         required DCAM certification for the Aldenville Common project, when
         such certification was not necessary, and did not document its basis for
         this decision. The Aldenville Common project also had other significant
         procurement deficiencies as noted in finding 1.
       o The quantity estimates in the City’s invitation for bid for unit-price
         contracts sometimes remained unchanged year after year and were
         incomplete, inadequate, and unrealistic estimates of the expected work.
         Bid documents submitted by contractors indicated prior experience with
         the City and that they had won bids for this work almost every year for
         the past 10 years. For the contracts awarded, the winning bidders had an
         idea of actual work to be performed each year because they had prior
         experience and, therefore, knew that they could provide a lower cost bid.
         Since these contractors were aware that the quantities listed in the
         invitations for bid were not a realistic expectation of the work, they had
         an unfair advantage over other bidders.
       o The architectural services were not competitively procured for Rivers
         Park and Aldenville Common as required by federal regulations.

•   The City improperly added $121,968 in additional construction work for
    Aldenville Common ($81,175) and Rivers Park ($40,793) without going out for



                                  22
                    bid. The City instead added this work as change orders after the bid award,
                    which did not promote fair and open competition.

               •    Did not always ensure that federal contract provisions were included in
                    contractor agreements.



     Federal Financial Requirements
     Not Followed


           The Office of Community Development did not ensure that CDBG funds administered
           by other City departments followed federal financial management requirements.
           Specifically, the City’s two-tier payment system did not have a clear audit trail from
           source to expenditure, ineffective controls allowed ineligible costs or duplicate invoices
           to be paid, and community development scope of work and budgets varied from actual
           accomplishments.

               •    Under the two-tier payment system, accounting records did not adequately
                    identify the source and application of funds provided for the CDBG
                    improvement activities. Until recently, the City used a two-tier payment system
                    for CDBG-funded public works and park improvement activities, whereby
                    various invoices from contractors and vendors were submitted to Public Works
                    or Parks and Recreation, which would, in turn, request payment from the Office
                    of Community Development for these expenses under the interdepartmental
                    agreement contract number. The Office of Community Development would
                    then process a payment to the requesting departments (i.e., Parks and Recreation
                    or Public Works). The departments would then make payments to the
                    contractors and vendors. The City’s financial system (MUNIS) referenced the
                    payments from the Office of Community Development to Public Works and
                    Parks and Recreation by the specific contract numbers between Public Works
                    and the Office of Community Development. However, when Public Works or
                    Parks and Recreation made the actual payment to the various contractors and
                    vendors, the system did not cross-reference the Office of Community
                    Development and Public Works contract number. We were able to trace
                    payments made by the Office of Community Development to Public Works and
                    Parks and Recreation, but we could not trace the expenses to the actual payee
                    using the financial system. 21 However, the City indicated that it recently
                    implemented a new system, whereby the payments to the actual contractors and
                    vendors are made directly by the Office of Community Development. The
                    review did not include projects under this new system and, thus, no audit
                    conclusions can be made on the new system.

21
  Although we could not trace payments made by Public Works and Parks and Recreation to contractors and
vendors in the financial system, a detailed review of disbursement records (warrants, invoices, etc.) did not show
any misappropriated payments.


                                                         23
           •   The City did not have effective control and accountability to assure that CDBG
               funds were only used for authorized purposes (including maintenance and
               repairs and paying negative numbered invoices). The City’s control system did
               not ensure that CDBG funds were only used for authorized purposes; contract
               cost details were either not reviewed or their nature not properly considered. As
               a result, it paid more than $628,000 for ineligible or unsupported maintenance
               and repair of existing public improvements and facilities and for a study of the
               City’s North Industrial Park under the Public Works and Parks and Recreation
               contracts. Additionally, although there were controls in place to prevent
               duplicate invoices from being paid, City personnel were able to override this
               control by entering a space, hyphen, or other character before or after the
               invoice.

           •   The City did not compare its actual expenditures with budgeted amounts within
               its contracts (i.e., parks contracts or interdepartmental agreements between the
               Office of Community Development and Parks and Recreation). The review
               found instances in which work as specified in the interdepartmental agreement
               scopes and budgets differed from actual accomplishments. For example,
               although the Rivers Park contract called for the complete reconstruction of the
               tennis courts with a budget of $38,000 and a Water Spray Park with a budget of
               $40,000, these items were not accomplished. Instead, Parks and Recreation
               actually spent more money on the pool and pool house work and installed a
               basketball court.



Davis-Bacon Labor Compliance
Requirements Not Met


       The Office of Community Development did not ensure that Parks and Recreation and
       Public Works complied with federal labor requirements for procurements funded using
       CDBG funds. Parks and Recreation and Public Works did not always perform
       employee interviews or perform an adequate amount of employee interviews, obtain all
       certified payroll reports, or document and adequately review certified payroll reports,
       including following up with contractors when documentation was missing or
       discrepancies were identified such as not including federal prevailing wage rates in bid
       documents. For example,

           •   A review of certified payrolls for the primary contractor for the Aldenville
               Common project and correspondence in Parks and Recreation’s files showed
               that for masonry work performed by the contractor’s employees, the payroll
               reports did not classify the employees as masons, but as laborers. The
               contractor inappropriately applied the laborer rate instead of the masonry rate
               for these employees, and these workers were not paid the correct wages.



                                              24
                 •    Public Works did not follow up and verify that the contractor paid the correct
                      rate to its employees, although an employee interview disclosed that a lower
                      rate was paid than that shown in the contractor’s certified payroll. Public
                      Works should have verified the rate paid by the contractor by obtaining a
                      payroll stub from the employee or payroll records from the contractor.

            In discussions with Public Works and Parks and Recreation staff, they indicated that
            they were not fully aware of all the federal labor compliance requirements applicable to
            the procurements using CDBG funds. The director of the Office of Community
            Development believed that the certification signed by the contractor was instead the
            signature of the person in these departments that reviewed the certified payroll reports.
            Public Works believed that since the contractor certified that the payrolls were correct,
            no further review was required. The City acknowledged that its staff needs more
            training in federal labor compliance requirements.



     Policies and Procedures for
     Monitoring and Oversight of
     Other Departments Inadequate


            The Office of Community Development did not have adequate policies and procedures
            for monitoring other City departments provided CDBG funding. This deficiency
            resulted in ineligible activities and costs being funded. The City also did not ensure
            that employees were properly trained in federal procurement and contracting, financial
            management, and labor compliance requirements or perform a labor compliance review
            of contractors and ensure that all federal labor requirements had been met. In addition,
            the Office of Community Development did not carefully review contracts and payment
            requests submitted by contractors to identify costs specifically prohibited by CDBG
            regulations, such as maintenance and repair items.

            Our first audit report 22 issued March 21, 2007 for the City of Chicopee’s housing
            rehabilitation contracts included many of the same deficiencies cited in this finding.
            The City is working with HUD to address the recommendations from the first audit,
            including developing policies and procedures for awarding, administering, and
            monitoring CDBG and HOME program funds.




22
 OIG Audit Report 2007-BO-1003, “The Office of Community Development, City of Chicopee, Massachusetts, Did Not Properly Award and
Administer Community Development Block Grant and HOME Funds Used for its Housing Activities”



                                                                25
     Recommendations


             We recommend that the Director of HUD’s Boston Office of Community Planning and
             Development require the City to

             3A. Develop and implement policies and procedures for monitoring and oversight of
                 other City departments that receive CDBG funds through the Office of
                 Community Development.

             3B. Provide adequate training to appropriate City staff to ensure compliance with
                 federal procurement and contracting, financial management, and labor compliance
                 requirements.

             3C. Repay from nonfederal sources the $51,000 in CDBG funds used for ineligible
                 maintenance and repair items, based on a HUD determination, and repay the
                 remaining $184,159 in unsupported maintenance and repair costs if deemed
                 ineligible. 23

             3D. Determine whether the $30,000 in costs for the North Industrial Park study is
                 eligible under planning and if so, reclassify these costs and, if not eligible, require
                 repayment from nonfederal sources.

             3E. Perform a labor compliance review of certified payrolls for Public Works and
                 Parks and Recreation and require the contractors to pay their employees for any
                 wage underpayments.




23
     We excluded the repayment amount of $363,261 in this recommendation as it is questioned in finding 1.


                                                         26
                        SCOPE AND METHODOLOGY

To achieve our audit objectives, we reviewed program requirements, including

   •   Federal laws, regulations, HUD guidebooks, and notices for the CDBG program;
   •   Office of Management and Budget circulars; and
   •   Massachusetts general laws over procurement.

We also obtained an understanding of the City’s policies and procedures over procurement and
public facilities and improvement activities through interviews with City officials from the
Office of Community Development, Purchasing Department, Auditing Department, Office of
Treasurer, Public Works, and Parks and Recreation.

We interviewed the Community Development Advisory Committee (CDAC) regarding the
Aldenville proposals.

We contacted the Massachusetts’s Attorney General’s Office and the Division of Capital Asset
Management to clarify state requirements.

Using information contained in HUD’s Integrated Disbursements and Information System, we
identified that during our audit period of July 1, 2002, through December 31, 2006, there were 25
activities funded with more than $5.8 million in CDBG funds. From this universe, we selected a
sample of four parks activities and eight road and sidewalk activities funded with CDBG funds
totaling more than $4.32 million. We also expanded our universe scope to include one activity
totaling $62,975 outside our scope because this project was originally part of a larger park
project in our sample that was broken out into two separate procurement actions.

We examined project records and supporting documentation maintained by the Office of
Community Development, Public Works, Parks and Recreation, and the Purchasing Department.
We used various financial information and conducted interviews to obtain clarification or
additional information from the various activities’ participants, including Office of Community
Development, Public Works, and Parks and Recreation staff; architects; and contractors. We
performed on-site inspections of park and street and sidewalk improvement projects, and
determined whether the pubic process was followed for the Aldenville Common and Aldenville
area street improvement activities included in the July 1, 2004 annual action plan.

Our fieldwork was performed between March and August 2007. We conducted the majority of
our fieldwork at Parks and Recreation and Public Works, located, respectively, at 687 Front
Street and 115 Baskin Drive, Chicopee, Massachusetts. Our audit covered the period July 1,
2002, through December 31, 2006, but was expanded to include other periods when necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               27
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                  •   Controls to ensure that laws and regulations are followed for CDBG-related
                      activities.
                  •   Controls to ensure eligibility of CDBG projects.
                  •   Controls over awards and disbursements of CDBG funds.
                  •   Controls over monitoring and oversight of CDBG funds provided to other
                      departments for public facilities and improvement activities.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

                  •   Controls to ensure that laws, regulations, and statutes are followed for
                      CDBG-related activities (see finding 1).
                  •   Controls to ensure eligibility of CDBG projects (see finding 2).
                  •   Controls over awards and disbursements of CDBG funds (see findings 1 and
                      3).
                  •   Controls over monitoring and oversight of CDBG funds provided to other
                      departments for public facilities and improvement activities (see finding 3).




                                               28
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation          Ineligible 1/   Unsupported 2/   Funds to be put        TOTAL
        number                                             to better use 3/
             1B           $1,162,501                                              $1,162,501
             1C                                                   $62,975            $62,975
             2A                              $2,787,800                           $2,787,800
             2D                               $104, 927                             $104,927
             3C              $51,000          $184,159                              $235,159
             3D                                 $30,000                              $30,000
                                                                                  $4,383,362


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this case, the OIG recommendation will result in
     $62,975 in costs not incurred for a gazebo in an improperly targeted area of the city.




                                            29
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         30
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2


Comment 3



Comment 4




Comment 5




                         31
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 6


Comment 7




Comment 7



Comment 8




                         32
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 9




Comment 10




                         33
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 11



Comment 12




Comment 13




Comment 14




                         34
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 15


Comment 16




Comment 17




                         35
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 18




Comment 19



Comment 20




Comment 21




Comment 22




                         36
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 23




                         37
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 24



Comment 25




Comment 26




Comment 27




Comment 28




                         38
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 28
continued




Comment 29




Comment 30




                         39
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 30
continued


Comment 31



Comment 32


Comment 33




Comment 34




Comment 35




                         40
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 36



Comment 37




Comment 38




Comment 39




Comment 40



Comment 41




                         41
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 42




Comment 43


Comment 44




Comment 45




                         42
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 46



Comment 47




Comment 48




                         43
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 49




                         44
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 50




Comment 51




Comment 52




Comment 53




                         45
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 54



Comment 55




                         46
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 56




                         47
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         48
        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         49
                           OIG Evaluation of Auditee Comments

Comment 1     The audit conclusions are supported and documented and have been
              independently verified in accordance with our quality control process. The
              information presented is factual and there is no misleading information in the
              report, however, some of the language and tone was addressed and we have
              clarified other information and revised the report, as deemed necessary. The
              information included in the report was deemed relevant.

Comment 2     The statement was revised accordingly.

Comment 3     The City was unable to demonstrate that the targeting of Aldenville was in
              accordance with its own policies of emphasizing “the need for a comprehensive
              rather than piecemeal approach to neighborhood revitalization” and "targeting
              CDBG funds to one eligible neighborhood at a time."

              The Aldenville neighborhood only had a 42% low-to-moderate population, which
              is below the CDBG 51% low-to-moderate income population requirement. As
              only two of the Aldenville neighborhood’s nine block groups were over 51%, it
              would not be possible for the City to provide a comprehensive approach to
              neighborhood redevelopment in Aldenville, even if one was needed.

Comment 4 - This new system was not instituted prior to the start of our first audit in June
            2006. During the first audit, we were advised by the Office of Community
            Development that they were in discussions with the Auditing Department
            regarding changing the two-tier payment system. Further, City financial records
            show that in October 2006 the Office of Community Development paid the Parks
            and Recreation for the Aldenville Common project and the Parks and Recreation
            paid the contractor for this payment in January 2007. If the City had instituted the
            new process before the audit, then the Office of Community Development would
            have made the payment to the contractor.

Comment 5     The information presented in the background provides history related to the City’s
              administration of the CDBG funds for the findings presented. However, the
              statement was revised accordingly based on information taken from a press
              release issued by the US Department of Justice dated June 13, 2007. This
              information was relevant to Finding 1, and therefore included as background.

Comment 6     The conclusions regarding the Aldenville neighborhood as described in the report
              directly reflected the assertions noted in a consultant’s study and report (RKG
              Housing Market Study) issued in September 2003 and April 2004. In this study,
              performed at the request of the Office of Community Development, it was found
              that “Neighborhoods C (Aldenville), E and F typically rank high and out-perform
              the city benchmark [socioeconomic indicators i.e. owner occupancy, median
              income, median selling price, and median rent]. Similarly, with respect to these



                                              50
            indicators, Neighborhoods A, B and D typically underperformed relative to the
            city averages.” This Housing Market Study further found that “In summary, and
            similar to the patterns identified in the comparison of socioeconomic indicators,
            Neighborhoods C, E and F generally out-perform the city average with respect to
            housing indicators, such as owner- occupancy rates and lower vacancy rates.”

            Our evaluation of the Housing Market Study and the Technical Addendum
            included was extensive and considered the pertinent and germane information
            contained therein. Our evaluation is further supported by the findings and
            recommendations as concluded by the City’s own consultant in the Housing
            Market Study. Additionally, during a December 2, 2004 CDAC meeting, Office
            of Community Development cited the RKG Housing Market Study, and indicated
            that Aldenville was stable.

Comment 7   The City did not provide any documents to support its claim that the Aldenville
            neighborhood was starting to decline. The assertion contained in the city’s
            response appears to be based on inappropriate and misguided statistics drawn
            from the Technical Addendum.

            As noted previously, the Housing Market Study concluded that Aldenville
            “typically rank(ed) high and out-perform(ed) the city benchmarks (socioeconomic
            and housing). This study also showed that the Aldenville neighborhood had:

                  The highest percentage of owner-occupied housing at 73.6%, well above
                   the citywide average of 59.3%.
                  Relatively high median household income at $40,221 (2nd highest in city),
                   above the citywide average of $35,672.
                  One of the highest median home values (selling prices in 2002) in
                   Chicopee at $124,000 (3rd highest in City), above the citywide average of
                   $121,350.
                  One of the highest percentages of housing stock as single family
                   residences (2nd highest at 68.7% - the highest was 69%), well above the
                   54.2% citywide average.
                  The 2nd lowest concentration of multifamily (31.3%) and Chapter 40-B
                   housing (1%) both well below the citywide average for these indicators at
                   45.8% and 9.7% respectively.
                  A more modern (post 1940) housing stock. Only 22.1% was built prior to
                   1940, compared to the citywide average of 30.7%.
                  The lowest vacancy rate (tied with neighborhood F) in the City at 3.4%,
                   compared to the citywide average 5.4%. Neighborhoods B and E had the
                   highest vacancy rates at 7%.

            We also noted that the City, in its response, used racial descriptions of
            populations in particular neighborhoods. These descriptions are not appropriate
            and the Office of Inspector General disavows such characterizations.




                                            51
Comment 8     The City was unable to demonstrate that the targeting of Aldenville was in
              accordance with its own policies (See Comment 3).

Comment 9     The City improperly used CDBG funds for Aldenville because Aldenville
              neighborhood projects were not eligible for funding and the City did not follow its
              own selection or public process for these projects (See Comment 10). The City’s
              former mayor intervened in the City’s normal decision-making process to have
              the Aldenville projects included in the City’s fiscal year 2005 annual action plan.
              Despite the presence of an apparent conflict of interest, the City permitted the
              former mayor to influence decisions regarding the accomplishment of these
              projects. The decision to use CDBG funds for the projects is also improper
              because (1) the neighborhood was inappropriately classified as a CDBG “target
              area” and therefore ineligible, (2) its inclusion in the annual action plan was based
              on inaccurate information and without the required public participation, (3)
              significant deficiencies were found in procurement actions related to the projects,
              and (4) the city could not provide documentation showing or support that the
              work was necessary (See Report Finding 1).

Comment 10 During the audit, the City was unable to produce records to show that the public
           process in place was in fact followed or that there were sound community
           development reasons for doing work in Aldenville (See Comments 7 and 23) .

              The primary vehicle for citizen participation in Chicopee is the Community
              Development Advisory Committee (CDAC), according to the City’s Citizen
              Participation Plan, included as part of the annual action plan submitted to HUD.
              CDAC members are appointed by the mayor, and their duties include reviewing
              CDBG program proposals and recommending to the Mayor those proposals which
              meet funding objectives. The CDAC holds public meetings to review the various
              proposals and the minutes of these meetings must be recorded. Although
              requested by OIG Audit on several occasions, the Office of Community
              Development could not provide the minutes of CDAC meetings for the period
              when the Aldenville projects were awarded. The City clerk advised they had no
              such records. Without these official records, the City cannot demonstrate that the
              public process in place was followed.

              During the audit, we reviewed records on file in the Office of Community
              Development that included written notations from meetings of the CDAC through
              March 16, 2004. These records showed that on February 18, 2004, the City’s
              Public Works and Parks and Recreation presented their original proposals to the
              CDAC. The Aldenville projects were not included as part of this presentation.
              The CDAC written meeting notes also indicated that the Aldenville projects were
              never presented to the CDAC by the Public Works or the Parks and Recreation.
              Despite this, the April 7, 2004, award letters for the Aldenville projects indicate
              that the Mayor and the CDAC had made their final decisions for funding and had
              selected projects in the Aldenville target area. However, one CDAC member did



                                               52
              not remember the Aldenville projects being proposed whatsoever, and the other
              member could not specifically recall whether these projects were proposed by
              Public Works and Parks and Recreation.

              Neighborhood hearings on the projects were held after the Consolidated Plan
              development process and the selection of the Aldenville neighborhood projects
              were completed. The Aldenville activities were submitted in May 2004 to HUD
              as part of the annual action plan. The 1st public hearing was held in June 2004
              and the 2nd was held in September 2004. Any resident input obtained at the June
              2004 hearing was not documented, and the resident input obtained at the
              September 2004 hearing was based on items already determined.

Comment 11 The conflict was a result of the mayor’s “decision-making” involving projects
           where he played a direct role, such as proposing and designing the projects,
           involving the specific neighborhood in the city where he and his family resided.
           The former mayor benefited from the CDBG activity.

Comment 12 The City did not provide any documents to support the claim that it correctly
           classified Aldenville as an eligible neighborhood and correctly used the data
           prepared by RKG Associates (See Comments 3,6,7, and 23).

Comment 13 The audit did not evaluate whether adequate funds had been made available to
           address other neighborhoods. The RKG Housing Market Study, however,
           included recommendations that identified several other lower-performing
           neighborhoods that the City could have considered for CDBG funding.

Comment 14 Although the Mayor serves as the City’s administrator, funding received from the
           federal government is directed to the City, for the City and not the Mayor. The
           City and HUD have procedures in place to identify and select eligible project
           candidates; however, in this case these procedures were ignored because of the
           Mayor’s direct involvement. The City also could not provide documentation that
           the public was given an opportunity to participate in the selection of the
           Aldenville neighborhood projects (See Comments 7, 10, 11, and 23). In addition,
           the project did not meet HUD eligibility criteria for selection.

Comment 15 The work did not meet HUD’s criteria for eligible and fundable projects (See
           Comment 9). In addition, the City did not adequately determine and document
           the actual service area for Aldenville Common (See finding 2). We also noted
           that the City, in its response, used racial descriptions of populations in particular
           neighborhoods. These descriptions are not appropriate and the Office of Inspector
           General disavows such characterizations.

Comment 16 We clarified this statement to say “These projects were not originally proposed by
           Parks and Recreation and Public Works during the City’s fiscal year 2005 annual
           CDBG planning process.”




                                              53
              The City’s process is flawed if, in fact, proposals by mayors are provided and are
              undocumented. CDAC members are then appointed by the mayor, and these
              members recommend projects to the mayor, who in turn acts as the decision
              maker (See Comment 10). One CDAC member did not remember the Aldenville
              projects being proposed whatsoever, and the other member could not specifically
              recall whether these projects were proposed by Public Works and Parks and
              Recreation.

              Public Works was aware that the block groups showed 51% low/moderate income
              area for 2 block groups as it included two streets in the Aldenville block group
              8110 in its original proposal.

Comment 17 We cannot comment on a 22 year old project that we have not reviewed, and the
           internal control procedures applicable during that time period were far outside the
           period of our review. We note, however, that although regulations allow
           architectural design features, the park already had concrete walkways and a
           fountain in place. Further, the City used a low-to-moderate income area benefit;
           however, this “central neighborhood park” would benefit the “Aldenville
           neighborhood,” which had a 42% low to moderate income population. The City
           has stated that the summer concerts in the park attracted residents from the
           Aldenville neighborhood and residents from other areas of the city as well.

Comment 18 OMB Circular A-87 and 24 CFR 85.36 requires the project work to be necessary
           and reasonable. The City could not provide documentation showing the necessity
           of the work. Further, the City’s response states that the Public Works does not
           maintain a database or inventory of street project work, and does not have a
           priority list of roadway improvements for the City. Based on this response, the
           City cannot show that it can document the need for any street or roadway work by
           the Public Works, and therefore, the City is not in compliance with Federal
           regulations.

              The City’s response also contradicts what Public Works personnel told audit team
              members during the audit. Previous and subsequent Public Works street work
              proposals to the Office of Community Development included a summary of the
              conditions for each proposed street, sidewalk, sewer, etc. Neither the Office of
              Community Development nor the Public Works could produce such a summary of
              conditions, or any other documentation, to show the “necessity” of the other
              Aldenville street improvements.

Comment 19 The former mayor’s wife also benefited from the activity, as did the mayor. The
           mere presence of the mayor’s wife on the Parks and Recreation Commission adds
           to the appearance of a conflict of interest, and as one of the Commissioners, the
           mayor’s wife had decision making authority. All appearances of a conflict of
           interest should be avoided.




                                              54
Comment 20 Based on interviews with Parks and Recreation staff, the former mayor did select
           which items would be used in the park. The City could not provide
           documentation showing a justification for including proprietary specifications.
           The architect also stated that they had obtained an extremely detailed amount of
           input from the former mayor, and that the former mayor was very “hands-on” in
           regards to the project.

Comment 21 In its response, the City suggested that it “would have been more appropriate to
           photograph the decorative trash receptacles at …Sheridan…and Rivers Park(s).”
           We did not find any decorative trash receptacles at the time of our inspection at
           Sarah Jane Sherman Park or Rivers Park. However, the photographs of the trash
           receptacles from the Sarah Jane Sherman Park and Aldenville Common were
           removed from the report.

Comment 22 The former mayor and his wife benefited from the work done on their street and at
           the park across the street, and therefore, the appearance of a conflict of interest
           should have been considered by city officials, including the Office of Community
           Development. The conflict was a result of the mayor’s “decision-making”
           involving projects in which he played an active and direct role such as proposing
           and designing the work. These projects also involved the specific area in the city
           where he and his family resided.

Comment 23 The conclusions regarding the Aldenville neighborhood as described in the report
           directly reflected the assertions noted in a consultant’s study and report (RKG
           Housing Market Study) issued in September 2003 and April 2004 (See Comments
           6 and 7).

              The statistics, in part, used by the City to subsequently justify its assertion that
              Aldenville was declining were inappropriate and misguided (See Comment 15).
              Also, the Aldenville neighborhood is made up of two census tracts; 8110 and
              8112. The street improvements, took place in 8110 not 8112. According to the
              Technical Addendum, census tract 8110 experienced a significant percentage
              decline in family poverty. Further, the improvements would more than likely
              increase property values and therefore increase the homeowners at risk.

              We also noted that the City, in its response, used racial descriptions of
              populations in particular neighborhoods. These descriptions are not appropriate
              and the Office of Inspector General disavows such characterizations.

Comment 24 Federal procurement regulations require a sound documented reason for rejecting
           bids. The letter provided by the Parks and Recreation to the Procurement Officer
           did not cite the reason for rejecting the bids. Further, rejecting the bids because
           the city did not have enough money available at the time is not a sufficient reason
           considering that the city should not have put the work out to bid, as it was
           designed. The independent cost estimate showed that the project would cost over




                                                55
              $446,000 for construction, and the Parks and Recreation only had $210,000
              available at the time, of which $34,300 was for the architect.

              The finding illustrates our reasons for determining that the City did not promote
              full and open competition to the maximum extent possible.

Comment 25 The project costs are in question because of several factors, one of which was the
           necessity of the project not being adequately documented. Further, repairs and
           maintenance work are ineligible costs of the CDBG program. Lastly, it is the
           responsibility of Parks and Recreation to maintain the City’s parks, which
           includes upgrading and replacing items as needed. As noted previously, we
           cannot comment on a 22 year old project, which we did not review.

Comment 26 The Aldenville neighborhood was not a low-to-moderate income area and
           therefore the project did not meet the national objective. Further, according to the
           City, the park was a “neighborhood park.” The neighborhood had a 42% low-to-
           moderate income population, and also, as stated by the City, residents from all
           over the City attended the summer concerts.

Comment 27 If the City had the ability to appropriate another $250,000 for the park, then it
           should have done so when it received the bids. Instead the city rejected the bids
           due to the high costs. Once the Aldenville project is complete with landscape
           plantings, the actual costs for this project will be more than $450,000, which is
           within the range of the cost estimated by the architect ($446, 855) at the time the
           city rejected the bids in 2005.

Comment 28 The City did not act prudently in the award of funds and can not support the
           reasonableness of the project costs (See Comments 3, 6, 7, 9, 10 and 22).

              The City hired a consultant, who provided several recommendations for
              addressing needs in the City’s various neighborhoods. These recommendations,
              many of them for the City’s poorer and needier neighborhoods, were changed and
              applied, instead, to the Aldenville neighborhood. In the consultant’s report, the
              Aldenville neighborhood only had two recommendations. This is not a prudent
              use of the consultant’s recommendations or of the CDBG funding.

Comment 29 Although the Mayor serves as the City’s administrator, funding received from the
           federal government is directed to the City, for the City and not the Mayor. The
           City and HUD have procedures in place to identify and select eligible project
           candidates; however, in this case these procedures and eligibility requirements
           were ignored because of the Mayor’s direct involvement. The Aldenville
           neighborhood projects were not eligible because they do not meet the federal
           national objective requirements (See Comments 10 and 11 and Audit Finding 1).
           The City plans to change the funding source for the gazebo to non-federal funds.




                                              56
Comment 30 As noted in communications we received from the current mayor, we were
           advised that the City is planning to change the funding sources (from CDBG) to
           pay for the gazebo. To date, the City has not changed its position that it does not
           agree to repay the remaining $1,162,501 (the project cost less the cost of the
           gazebo).

Comment 31 Federal regulations were violated. (See Comments 9 and 10 and Audit Finding 1).

Comment 32 The City did not provide any documents to support its claim that it 1) consulted
           with the Parks and Recreation Superintendent on service areas, or that 2) the use
           of the National Recreation and Parks Association standards to determine park
           service areas was appropriate. During the audit, the Parks and Recreation
           Superintendent advised that project eligibility is determined by the Office of
           Community Development. The use of National Recreation and Parks Association
           standards to determine park service areas may not produce an area served in
           accordance with CDBG program requirements. The determination of the area
           served by an activity is critical to the area benefit subcategory. The CDBG
           program requires that the nature and location of the activity, accessibility issues,
           and the availability of comparable activities, be considered in making the
           determination of the area served. The City’s records did not show that the above
           factors were considered.

Comment 33 The City was unable to demonstrate that the targeting of Aldenville was the need
           for a comprehensive rather than piecemeal approach to neighborhood
           revitalization (See Comments 3).

Comment 34 HUD regulations indicate that the location of an activity alone does not
           demonstrate an area benefit. HUD guidance provides that the “mere location of
           an activity in a low and moderate income area, while generally a primary
           consideration, does not conclusively demonstrate that the activity benefits low
           and moderate income persons.” In addition 24 CFR [Code of Federal
           Regulations] 570.208(a) provides that “[The] area need not be coterminous with
           census tracts or other officially recognized boundaries but must be the entire area
           served by the activity” (See Comment 32).

Comment 35 The use of National Recreation and Parks Association standards to determine park
           service areas may not produce an area served in accordance with CDBG program
           requirements (See Comment 32).

Comment 36 An audit includes the extensive examination of information and records, and
           exceeds what is performed during a HUD monitoring review. In its review, HUD
           interviewed officials of the Office of Community Development and reviewed file
           records (some of which were not accurate). HUD did not review records of the
           Parks and Recreation or its board minutes. In addition, we noted that file
           documents in the Office of Community Development showed that the activity for




                                              57
              Rivers Park was for playground equipment, not pool repairs and pool house
              renovations.

Comment 37 While Rivers Park and Sarah Jane Sherman Park are located in an area considered
           as a low-to-moderate-income area, there is evidence that these parks as a whole
           may not “principally benefit” low-to-moderate-income persons. Rivers Park and
           Sarah Jane Sherman Park are both large in size and, based on information
           provided by Parks and Recreation, the service area for these parks is broader than
           currently defined in the projects’ eligibility documentation maintained by the
           Office of Community Development. For example, Rivers Park and Sarah Jane
           Sherman Park were used on a regular basis by the Chicopee Public Schools’ high
           school (i.e., citywide) athletic departments for soccer, football, softball, and
           baseball team practices and games with other cities’ and towns’ various athletic
           teams. These two parks were also used by other local athletic organizations
           throughout the city and other areas. Parks and Recreation staff acknowledged that
           Rivers Park, Sarah Jane Sherman Park, and the area known as Aldenville
           Common served a citywide area.

              According to the request for funding submitted by Parks and Recreation to the
              Office of Community Development, the parking lot improvements at Sarah Jane
              Sherman Park were proposed to improve ball field accessibility.

Comment 38 We agree that based on attendance sheets for Rivers Pool it is demonstrated that
           the pool and pool house facilities “principally benefit” low-to-moderate income
           persons. This additional information was provided subsequent to the presentation
           of our finding outlines to the City. The finding’s recommendation (2A) takes this
           fact into consideration in regards to determining the actual service areas
           (See Comment 37).

Comment 39 In its response, the City noted that “people from other neighborhoods do not use
           passive parks such as Aldenville Commons on a regular basis. Concerts held
           once a week in the summer may attract some residents from outside the area, but
           attendance is limited physically by the size of the Common itself (7,600 square
           feet), amount of parking and traffic congestion in the area.” This statement is
           contrary to information included in correspondence between the Parks and
           Recreation and the Office of Community Development on project origination
           documents dated May 2004. Specifically, the Parks and Recreation
           correspondence states “The following project request will help modernize and
           upgrade one of our most used facilities which needs a serious facelift.”

              Aldenville Common was known for its summer concerts and people came from
              all over the city to attend the concerts. This should have been considered in its
              determination of the service area.

Comment 40 The determination of the area served by an activity is critical to the area benefit
           subcategory (See Comments 32 and 34).



                                               58
Comment 41 The audit noted that the City’s use of block numbering area percentages was not
           accurate since the street improvements did not always include all, or even a
           majority, of the streets within the block numbering area, and that the City only
           paved certain streets within block numbering areas. This is based on census data
           for the block groups that showed that in some instances, the percentage of persons
           making above $35,000 could be up to 50 percent and the percentage of persons
           making above $50,000 was, in some instances, above 20 percent.

Comment 42 The finding’s recommendation (2A) takes this fact into consideration in regards to
           determining the actual service areas (See Comments 37 and 38).

Comment 43 An audit includes the extensive examination of information and records, and
           exceeds what is performed during a HUD monitoring review (See Comments 36
           and 37).

Comment 44 The finding’s recommendation (2A) describes factors in regards to determining
           the actual service areas (See Comment 37).

Comment 45 The “worksheet” showing the calculations for the low-to-moderate income benefit
           had a date of “11/93” and was from Sheridan Street Housing Coop residents.
           According to the City, these Coop residents were surveyed because the families
           that live there used the park. It is not clear how the City justified using the
           incomes from these Coop residents to support the service area of a park located
           outside of the Coop area, and further down the street from the Coop. Further, the
           Sheridan Street Housing Cooperative already had a park located within the
           confines of the housing cooperative.

Comment 46 The audit noted that the City’s use of block numbering area percentages was not
           accurate and the City’s Office of Community Development did not adequately
           determine the actual service area (See Finding 2 and Comments 32 through 45).

Comment 47 The City’s Office of Community Development did not adequately determine the
           actual service area (See Finding 2 and Comments 32 through 45).

Comment 48 The deficiencies we identified in the procurement actions taken by the city for the
           Aldenville Common project included:

                     the necessity of the work was not adequately documented;
                     there was an apparent conflict of interest between a Parks and Recreation
                      Commission member, who was the former mayor’s wife, and the project;
                     there was an apparent conflict of interest with the former mayor and the
                      project;
                     the architect’s contract for this project was not procured properly;
                     the specifications included proprietary items, but did not conform to
                      Massachusetts State procurement regulations



                                              59
                     the project was initially put out to bid when all of the funds necessary
                      were not available;
                     these initial bids were then rejected without a sound documented reason;
                     the revised invitation for bid did not provide a clear and accurate
                      description of the work to be performed;
                     the City unnecessarily required DCAM certification on the initial
                      invitation for bid based on the gazebo being part of the bid;
                     the rebid of the project did not provide for a date and time for a pre-bid
                      meeting; and
                     the City did not go back out for bid for $81,175 in additional work, but
                      instead issue a change order, which according to the Massachusetts
                      Attorney General’s Office would be in violation of State regulations.

              Based on the numerous deficiencies cited above, the city did not promote free and
              open competition to the maximum extent possible (See Comment 3).

Comment 49 In regards to the nature and extent of the work at Rivers Park, the architect stated
           in his letter that the work was for substantial repairs. HUD regulations state that
           maintenance and repair costs are not eligible to be paid with CDBG funds. HUD
           regulations do not define “repairs.” Therefore, we considered the repairs as
           unsupported, rather than ineligible costs. We recommended that HUD make the
           determination as to whether the costs cited are maintenance and repair items.
           Correspondence we reviewed during the audit indicated that the work was
           maintenance and repairs in nature.

              Further, the architect’s letter also stated that he performed an inspection of the
              work with a concrete repair technician from the Sika Corporation. Based on this
              new information, we question the appropriateness of requiring proprietary
              manufactured products (from Sika Corp.) throughout the specifications. The City
              should provide a valid justification to HUD for using proprietary items for this
              project.

Comment 50 Repairs are not eligible CDBG costs. Also, the area of the City identified as
           “downtown” is not primarily residential in nature, and therefore, these costs may
           not meet the low-to-moderate income national objective. HUD should review
           these costs in detail to determine whether the City met a national objective for
           these costs.

Comment 51 We agree that it is not necessary to separate out the cleaning costs from the
           overall project. The cleaning costs could be bid and included in the overall
           project. However, CDBG funds should not have funded the cleaning portion
           ($25,000 of the total $137,000) of the project. In this case, the City should have
           used another funding source for that portion of the overall project.

              Further, based on the additional information provided in the City’s response, it is
              not clear that this activity itself could meet the “low-to-moderate area benefit”



                                               60
              national objective. Specifically, the service area may not meet the “primarily
              residential” requirement.

              In its response, the City notes that this specific project was designed, bid and
              constructed to make sure that the Public Works succeeded in its efforts to improve
              the sewer service to the downtown area. However, according to the RKG
              Housing Market Study issued in September 2003 and April 2004, the
              “downtown” setting, known as the “West End Neighborhood” has a population of
              just under 2000. This represents only 3.6% of the city’s population base. The
              residential acreage in this area accounts for 1% of the city’s residential properties,
              while commercial properties account for 2.1% of the city’s commercial acreage.

              Based on additional information provided by the City we removed $37,000 from
              the $88,000 in costs initially classified as ineligible. Based on this revision,
              several figures were revised throughout the report accordingly.

Comment 52 The project costs are in question because of several factors, one of which was the
           necessity of the project not being adequately documented (See Comment 25).

Comment 53 The study addressed traffic mitigation options for the North Chicopee Street
           Industrial Park.

Comment 54 The $62,975 bid received by the City differed substantially from the cost estimate
           provided by the Parks and Recreation. The quote provided by the Parks and
           Recreation for furnishing and delivering the post and beam gazebo was $20,862,
           plus $8,280 in additional options. The concrete pad/foundation for the gazebo
           was already installed under the prior contract with that contractor. It is unclear
           how the City determined this amount did not substantially differ from the bid it
           received. Parks and Recreation should have required a cost breakdown from the
           contractor to ensure that the costs were reasonable and that the profit was not
           excessive.

Comment 55 Federal regulations state that in order to use the sealed method of procurement,
           there needs to be a complete, realistic, and accurate specification or purchase
           description. If a realistic estimate cannot be determined, then the city should have
           considered other contract types such as a time and materials type contract, which
           would require a ceiling price be included in the contract. Further, if the city had
           performed a cost estimate and a cost analysis, it should have documented them,
           especially when Federal funds would be used under the contracts.

              Three contractors were awarded contracts with the city, some in which included
              work periods over the past 10 years. Given that the specifications were not
              realistic and accurate, and the same contractors who won the bids would have
              known this, it could have given these contractors an unfair advantage over other
              bidders.




                                               61
              We agree that the city can extend the option years, if there is a documented reason
              showing that it is more economical to do so.

Comment 56 We conducted a detailed review of the disbursement records, including warrants
           and invoices, because the City’s financial system did not allow the tracing of costs
           and expenditures. Further, Public Works’ project files did not provide an
           adequate audit trail, and as a result, it was necessary to manually examine each
           payment request and the accompanying source documentation submitted by
           Public Works. We were not able to trace payments made by Public Works back
           to the original CDBG contract between Public Works and the Office of
           Community Development using the City’s financial system (See Comment 3).




                                              62
 Appendix C

              APPLICABLE CRITERIA AND VIOLATIONS


24 CFR [Code of Federal Regulations]         The City violated conflict-of-interest
570.611(b) Conflict of interest              regulations. (Finding 1)

Playing by the Rules: A Handbook for
CDBG Subrecipients on Administrative
Systems-Section 6.12 Conflict of Interest

Memorandum dated June 16, 1986 from
Alfred C. Moran, Assistance Secretary
for Community Planning and
Development to Kenneth J. Finlayson,
Regional Administrator, Regional
Housing Commissioner.

Written agreements between the Office of
Community Development and Public
Works and Parks and Recreation
covering Aldenville activities – Article
XVI -1 and 2, Conflict of Interest
Community Development Advisory               Funds were not available to address
Committee Board Minutes dated                neighborhoods with much greater needs.
December 3, 2003                             (Finding 1)
Office of Management and Budget]             The neighborhood was inappropriately
Circular A-87-Cost Principles for State,     classified as a CDBG “target area”. (Finding
Local, and Indian Tribal Sound               1)
Management Practices: Attachment A
(c) (1) (e) and (c) (2) (b) and (d) -
General Principles for Determining
Allowable Costs.

City policies that apply uniformly to both
Federal awards and other activities of the
governmental unit included emphasizing
“the need for a comprehensive rather than
piecemeal approach to neighborhood
revitalization” and the "targeting CDBG
funds to one eligible neighborhood at a
time"



                                                63
24 CFR [Code of Federal Regulations]
570.208(a)(1) Criteria for national
objectives.
24 CFR [Code of Federal Regulations]           The public process was not followed.
Part 91.105 Citizen participation plan;        (Finding 1)
local governments

Office of Management and Budget
Circular A-87-Cost Principles for State,
Local, and Indian Tribal Sound
Management Practices: Attachment A
(c) (1) (e) - General Principles for
Determining Allowable Costs.

The City of Chicopee’s “Citizen
Participation Plan” as certified to HUD in
its July 1, 2004 Annual Action Plan.

24 CFR [Code of Federal Regulations]
570.506 (e), Records to be maintained
24 CFR [Code of Federal Regulations]           Significant deficiencies were found in
85.36 Procurement                              procurement actions related to the Aldenville
                                               projects. (Finding 1)
Designing and Constructing Public
Facilities, Recommended Practices,
Sources of Assistance, Legal
Requirements by Commonwealth of
Massachusetts Office of the Inspector
General Gregory W. Sullivan Inspector
General Fall 2005

Inspector General Proprietary
Specifications in Public Construction
Projects July 2003 Office of the Inspector
General Commonwealth of
Massachusetts Gregory W. Sullivan
24 CFR [Code of Federal Regulations]       The Aldenville activities did not meet CDBG
570.200(a)(5) Determination of eligibility program eligibility requirements. (Finding 1)

Office of Management and Budget
Circular A-87-Cost Principles for State,
Local, and Indian Tribal Sound
Management Practices: Attachment A
(c) (1) (e) and (j) and (c) (2) (b), (d) and
(e) - General Principles for Determining
Allowable Costs.


                                                  64
24 CFR [Code of Federal Regulations]     The City did not accurately determine or
570.208(a)(1) Criteria for national      document the actual service areas for more
objectives                               than $4.3 million in CDBG-funded public
                                         improvement activities. (Finding 2)
24 CFR [Code of Federal Regulations]
570.506 (b), Records to be maintained

CDBG Desk Guide: Community
Development Block Grant Program -
Guide to National Objectives and
Eligible Activities for Entitlement
Communities.

Previous HUD Opinion dated April
19,1993 for MEMORANDUM FOR:
John E. Wilson, Deputy Regional
Administrator - Regional Housing
Commissioner, FROM: Don I. Patch,
Acting Deputy Assistant Secretary for
Grant Program.
24 CFR [Code of Federal Regulations]     Records Prematurely Purged for One Park
570.506, Records to be maintained        (Finding 2)

24 CFR [Code of Federal Regulations]
570.490(d) Recordkeeping requirements
24 CFR [Code of Federal Regulations]     The City’s Office of Community
570.501 (b), Responsibility for Grant    Development did not provide adequate
Administration                           oversight and monitoring of CDBG funds
                                         provided to Public Works and Parks and
                                         Recreation to ensure that funds were used in
                                         accordance with CDBG program
                                         requirements. (Finding 3)
24 CFR [Code of Federal Regulations]     CDBG regulations provide that costs
570.207 (b) (2), Ineligible activities   associated with the maintenance and repair of
                                         publicly owned streets, parks, playgrounds,
                                         and water and sewer facilities are not eligible
                                         CDBG costs. The general rule is that any
                                         expense associated with repairing, operating,
                                         or maintaining public facilities,
                                         improvements, and services is ineligible.
                                         (Finding 3)
24 CFR [Code of Federal Regulations]     The City’s Office of Community
85.36 Procurement                        Development did not ensure that $5 million
                                         in procurements and contracts awarded by
                                         other City departments, in whole or in part
                                         using CDBG funds, always followed federal


                                            65
                                       procurement and contract procedures as
                                       required. (Finding 3)
24 CFR [Code of Federal Regulations]   The Office of Community Development did
85.20 Standards for financial          not ensure that CDBG funds administered by
management systems                     other City departments followed federal
                                       financial management requirements. (Finding
                                       3)
24 CFR [Code of Federal Regulations]   The Office of Community Development did
570.603, Labor Standards               not ensure that Parks and Recreation and
                                       Public Works complied with federal labor
                                       requirements for procurements funded using
                                       CDBG funds. (Finding 3)
24 CFR [Code of Federal Regulations]   Primarily residential (SEE COMMENT 51 in
570.208(a) (1) Criteria for national   OIG evaluation of Auditee Comments)
objectives.




                                          66
